Roderick and Solange MacArthur Justice Center
777 6th Street NW, 11th Floor
Washington, DC 20001
macarthurjusticecenter.org

Amir H. Ali
Supreme Court & Appellate Counsel
amir.ali@macarthurjustice.org
O 202 869 3434
F 202 869 3435

March 24, 2020
VIA HAND DELIVERY
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Shaffer v. Pennsylvania, Case No. 19-618
Dear Mr. Harris,
Respondent filed its brief in opposition to certiorari in the above-captioned case
on March 12, 2020. The first distribution date for paid petitions following the 14-day
grace-period is April 1, 2020.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 14 days, until the Court’s April
15, 2020 distribution date. Petitioner requests this additional time to file a certiorari
reply based on substantial disturbances caused by the COVID-19 outbreak.
Respondent does not oppose this request.
Very truly yours,

Amir H. Ali
Counsel for Petitioner

CC: Christopher Joseph Schmidt, Counsel for Respondent

